CERTIFICATE OF WORD COUNT
NO. 19-496
Dish Network LLC,
Petitioner(s),
v.
Thomas Krakauer,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the CRUISE LINES
INTERNATIONAL ASSOCIATION AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S) contains
2095 words, including the parts of the brief that are required or exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
November 18, 2019

SCP Tracking: Rose-169 South Rodeo Drive-Cover Cream

